CERTIFICATE OF COMPLIANCE
Plaintiff, I (Servant) hereby certify the foregoing brief
was prepared on a computer using a Word 2016Word
processing system. A proportionally spaced typeface
was used as follow.
Name of typeface: Century Schoolbook
Font size: 12
Line spacing: Double Spaces
The total number of words in the brief, inclusive of
point heading and footnotes and exclusive of pages
containing the table of contents, table of citations, proof
of service, certificate of compliance, or any authorized
addendum containing statutes, rules, regulations,
ordinance and God's commandment etc., is 1352.
Dated: Queens, New York
November 11, 2019
The Church of Jesus Christ of Latter-day saints
Servant: X`q&
CI)11124+u Gil
Xiu Jian Sun, the spiritual Adam
54-25 153rd St
Flushing, NY 11355
(646) 675-0308
Plaintiffs

A 0607

